U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 31, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Johnny Gateway v. United States of America,
S.Ct. No. 20-1233

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 2,
2021, and placed on the docket on March 8, 2021. The government’s response is due on April 7,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1233
GATEWAY, JOHNNY
USA

NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM
MEGAN KEENAN
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001-4956
202-662-5683
MKEENAN@COV.COM
MICHAEL PEPSON
AMERICANS FOR PROSPERITY
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
MPEPSON@AFPHQ.ORG
DORIS A. RANDLE-HOLT
FEDERAL PUBLIC DEFENDER FOR THE WDTN
200 JEFFERSON
SUITE 200
MEMPHIS , TN 38103
901-544-3895
DORIS_HOLT@FD.ORG

